U.S. Department of                         The Inspector General   Office of Inspector General
Transportation                                                     Washington, D.C. 20590
Office of the Secretary
of Transportation



April 23, 2010



The Honorable Darrell Issa
Ranking Minority Member
Committee on Oversight and Government Reform
U.S. House of Representatives
Washington, DC 20515

Dear Ranking Member Issa:

This correspondence is in response to your letter of March 24, 2010, requesting that
the Department of Transportation Office of Inspector General (OIG) provide
information on the status of open audit recommendations. Specifically, you requested
the following: the number of open recommendations; estimated cost savings
associated with open recommendations; our top three open recommendations; and the
number of recommendations that have been implemented since January 5, 2009.

As of April 6, 2010, we identified 341 open recommendations, included in 107 audit
reports. Of the 341 open recommendations, 45 recommendations, that were included
in 33 reports, carry an estimated monetary benefit or cost savings. The enclosed
document highlights these 45 recommendations and includes the following
information:

    •    Report Title
    •    Report Number
    •    Date Report Issued
    •    Operating Administration Responsible for Implementing the Recommendation
    •    Description of Recommendation
    •    Questioned Costs
    •    Unsupported Costs
    •    Funds To Be Put To Better Use
    •    Target Action Date (Provided by Operating Administrations)
    •    Remarks

Control No. 2010-043
                                                                                   2


To determine the three most important recommendations, we assessed the universe of
open recommendations based on whether the recommendation will lead to a
significant impact on safety, a significant financial benefit, or a significant
improvement in the economy or efficiency of the program audited. Using this
criteria, we consider the following to be the three most important open
recommendations.

Significant Safety Issue

• Federal Aviation Administration (FAA): Revise outdated regulations and
  strengthen its oversight of on-demand operators by implementing an interim
  risk assessment oversight process for on-demand operators until the risk-
  based System Approach for Safety Oversight approach is implemented. (On-
  Demand Operators Have Less Stringent Safety Requirements and Oversight than
  Large Commercial Air Carriers, AV2009066, issued on July 13, 2009.)

On-Demand operators—who fly at the request of their customers and operate aircraft
that are configured for 30 or fewer passengers or 7,500 pounds of payload or less—
play a vital role in the Nation's air transportation system. However, regulations are
outdated and the margin of safety needs to be enhanced. FAA concurred with this
recommendation. The target action date for completion was December 31, 2009. We
will contact FAA for a revised action date.

Significant Financial Benefit

• Federal Highway Administration (FHWA): Develop performance goals for
  measuring the effectiveness of State value engineering programs and for
  evaluating Division Office personnel in fulfilling the FHWA and Office of
  Management and Budget requirements for value engineering programs.
  (Value Engineering in the Federal-Aid Highway Program, MH2007040, issued on
  March 28, 2007.)

This recommendation was intended to ensure that required value engineering reviews
of highway projects are conducted and the results are properly used. The use of such
systematic and independently conducted reviews can yield significant savings. Our
2007 report estimated that states could have saved $725 million in Federal funds over
a 4-year period if all required reviews were conducted and more recommendations
were accepted. FHWA concurred with this recommendation. The target action date
for completion is April 30, 2010. We are currently reviewing information provided
by FHWA officials regarding their actions taken to implement this recommendation.



Control No. 2010-043
                                                                                      3




Significant Program Improvement

• Department of Transportation and Federal Rail Administration (FRA): Develop
  an action plan that lays out the steps that DOT will take or has already taken
  to implement an effective oversight strategy for the Federal Railroad
  Administration's High-Speed Rail Programs. (DOT's Implementation of the
  American Recovery and Reinvestment Act: Continued Management Attention is
  Needed To Address Oversight Vulnerabilities, MH2010024, issued on November
  30, 2009.)

This recommendation addresses the significant vulnerabilities FRA and DOT face in
starting up a new, large, and highly visible $8 billion program for high-speed rail
corridors and intercity passenger rail service. The High-Speed Rail Program
represents a significant organizational transformation for FRA, from a relatively small
agency primarily focused on rail safety issues, to a grant-making agency responsible
for starting up a large, long-term, multibillion-dollar program, which could receive
much public attention and scrutiny. For this new American Recovery and
Reinvestment Act of 2009 program, taking on the responsibilities that come with this
transformation has been a challenge for FRA. Specifically, acquiring sufficient
capacity to effectively manage the program and develop a comprehensive
implementation strategy. The Department concurred with this recommendation. The
target action date for completion is November 30, 2010.

Lastly, between January 5, 2009 and April 6, 2010, we have closed
424 recommendations that were contained in 173 audit reports.

It is important to note that since our last response to the Committee, the Office of the
Secretary (OST) has intensified efforts through the use of multiple tools to ensure that
expeditious and appropriate action is taken on OIG recommendations. These include:

    1. Detailed Progress Tracking – OST produces monthly Recommendation Action
       Tracking System reports that provide useful metrics for tracking their progress
       in closing reports. The report includes specific metrics for resolved and
       unresolved recommendations and older report recommendations. Single Audit
       recommendations are also tracked and highlighted for specific attention.

    2. Single Audit Emphasis – In 2009, DOT redesigned its process for resolving
       and completing action on Single Audits. During the first 3 months of calendar
       2010, increased implementation of this process has significantly cut unresolved
       single audit recommendations, and enabled OST to close almost half of the
       Single Audit recommendations that were pending on December 31, 2009.


Control No. 2010-043
                                                                                    4



    3. Ten Most Wanted – This listing highlights those reports and recommendations
       most in need of management action throughout the department, focusing
       attention on the actions necessary to better ensure that the balance of pending
       recommendations is current.

    4. Top Management Support – The Deputy Secretary is actively engaged in
       gaining expeditious management action on OIG recommendations. He has
       been working with Administrators to enhance awareness and involvement in
       closing recommendations.


Thank you again for your inquiry and interest. If you have any questions or need
further information, please contact me at (202) 366-1959 or Nathan Richmond,
Director and Counsel for Congressional and External Affairs, at (202) 493-0422.


Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure




Control No. 2010-043
                                                                                                                     Department of Transportation
                                                                                                        Office of Inspector General Open Recommendations
                                                                                                                          As of April 6, 2010

                                                  REPORT     DATE REPORT   OPERATING               DESCRIPTION OF                        QUESTIONED UNSUPPORTED FUNDS BE PUT TO   TARGET
                 REPORT TITLE                     NUMBER        ISSUED   ADMINISTRATION           RECOMMENDATION                           COSTS       COSTS      BETTER USE    ACTION DATE                 REMARKS
Oversight of Airport Revenue                     AV2003030     3/20/2003      FAA       We recommend that FAA verify the                                            $252,000     12/31/2011
                                                                                        current status of $40.9 million in
                                                                                        potential revenue diversions that we
                                                                                        identified during this review and, as
                                                                                        necessary, seek recoveries of
                                                                                        $252,000 identified at Allegheny
                                                                                        County.
Oversight of Airport Revenue                     AV2003030     3/20/2003           FAA        We recommend that FAA verify the                                      $14,285,026   12/31/2011   Miami-Dade County has agreed to
                                                                                              current status of $40.9 million in                                                               return $14 million in diverted funds to
                                                                                              potential revenue diversions that we                                                             the Miami International Airport. After
                                                                                              identified during this review and, as                                                            an initial payment of $3 million,
                                                                                              necessary, seek recoveries of                                                                    Miami-Dade County will pay quarterly
                                                                                              $38,710,289 identified at Miami-Dade                                                             payments of $564,251 over 5 fiscal
                                                                                              County.                                                                                          years, beginning October 1, 2006.
                                                                                                                                                                                               FAA expects all funds to be returned
                                                                                                                                                                                               by September 2011.


Audit of the Management of Land Acquired Under   AV2005078     9/30/2005           FAA        For the 11 airports included in the                                  $160,600,000   6/30/2010
Airport Noise Compatibility Programs                                                          audit, we recommend that FAA direct
                                                                                              airport sponsors to develop and
                                                                                              implement plans to recover FAA's
                                                                                              share (estimated at $160.6 million)
                                                                                              from the disposition of 3,608 unneeded
                                                                                              noise land acres.
Audit of the Management of Land Acquired Under   AV2005078     9/30/2005           FAA        For the 11 airports included in the                                   $81,700,000   10/1/2010
Airport Noise Compatibility Programs                                                          audit, we recommend that FAA direct
                                                                                              airport sponsors to develop and
                                                                                              implement plans to recover FAA's
                                                                                              share (estimated at $81.7 million) of
                                                                                              the affected land's fair market value
                                                                                              from airports that are misusing noise
                                                                                              land disposition proceeds.

Single Audit - City of Ft. Worth Texas           QC2009058     5/19/2009           FAA        We recommend that FAA recover                $9,893                                   TBD
                                                                                              $9,893 from the City of Ft. Worth.
Single Audit - Michigan Department of            QC2009103     9/29/2009           FAA        We recommend that FAA recover                $48,000                                1/31/2010
Transportation                                                                                $48,000 from the Michigan Department
                                                                                              of Transportation.
Single Audit - Santa Cruz County, Arizona        SA2010027     11/30/2009          FAA        We recommend that FAA recover               $299,224                                 2/5/2010
                                                                                              $299,224 from Santa Cruz County.
Single Audit - Santa Cruz County, Arizona        SA2010027     11/30/2009          FAA        We recommend that FAA recover               $277,864                                 2/5/2010
                                                                                              $277,864 from Santa Cruz County.
Single Audit - City of Gainesville, Georgia      SA2010037     1/13/2010           FAA        We recommend that FAA determine              $54,218                                  TBD
                                                                                              the allowability of the Davis-Bacon non-
                                                                                              compliance and recover $54,218 from
                                                                                              the City of Gainsville.




                                                                                                                            Page 1 of 5
                                                                                                                    Department of Transportation
                                                                                                       Office of Inspector General Open Recommendations
                                                                                                                         As of April 6, 2010

                                                   REPORT     DATE REPORT   OPERATING              DESCRIPTION OF                        QUESTIONED UNSUPPORTED FUNDS BE PUT TO   TARGET
                 REPORT TITLE                      NUMBER        ISSUED   ADMINISTRATION         RECOMMENDATION                            COSTS       COSTS      BETTER USE    ACTION DATE   REMARKS
Single Audit - Owensboro-Davies County            SA2010044     2/18/2010      FAA       We recommend that FAA recover                     $27,265                                  TBD
Regional Airport Board                                                                   $27,265 from the Airport Board.
Single Audit - Owensboro-Davies County            SA2010044     2/18/2010         FAA        We recommend that FAA recover                $138,914                                  TBD
Regional Airport Board                                                                       $138,914 from the Airport Board.

Single Audit - Gulfport-Biloxi Regional Airport   SA2010046      3/9/2010         FAA        We recommend that FAA recover                $1,330,834                                TBD
Authority                                                                                    $1,330,834 from the Airport Authority.

Single Audit - Gulfport-Biloxi Regional Airport   SA2010046      3/9/2010         FAA        We recommend that FAA recover                 $10,888                                  TBD
Authority                                                                                    $10,888 from the Airport Authority.
Single Audit - City of Lincoln, California        SA2010048      3/9/2010         FAA        We recommend that FAA determine               $99,936                                  TBD
                                                                                             the allowability of the expenditures, and
                                                                                             recover $99,936.

Opportunities to Free Up Unneeded FHWA Funds      MH2007037      3/6/2007        FHWA        We recommend that FHWA coordinate                                      $7,025,461    3/1/2010
For Use In Hurricane Recovery Efforts                                                        with the five Gulf State departments of
                                                                                             transportation to promptly identify how
                                                                                             the earmarked funds in the 19 projects
                                                                                             we identified in our audit could best be
                                                                                             redirected for use on hurricane
                                                                                             recovery efforts. FHWA should also
                                                                                             formally alert Congress that
                                                                                             approximately $10.7 million in
                                                                                             earmarked funds are available for
                                                                                             redirection to hurricane recovery efforts
                                                                                             within these same states. If necessary,
                                                                                             FHWA should also coordinate with
                                                                                             Congress regarding the legislative
                                                                                             requirements of each earmark in order
                                                                                             to identify the best method for
                                                                                             redirecting these funds.

Value Engineering In The Federal-Aid Highway      MH2007040     3/28/2007        FHWA        We recommend that FHWA develop                                        $725,000,000   4/30/2010
Program                                                                                      performance goals for measuring the
                                                                                             effectiveness of state value
                                                                                             engineering programs and for
                                                                                             evaluating Division Office personnel in
                                                                                             fulfilling the FHWA and OMB
                                                                                             requirements for value engineering
                                                                                             programs.
Single Audit - Oglala Sioux Tribe                 QC2008037      3/6/2008        FHWA        We recommend that FHWA determine             $117,928                                6/15/2010
                                                                                             the allowability of the five expenditures
                                                                                             and recover $117,928 from the Tribe, if
                                                                                             applicable.
Single Audit - Oglala Sioux Tribe                 QC2008037      3/6/2008        FHWA        We recommend that FHWA determine             $1,040,377                              6/15/2010
                                                                                             the allowability of the transaction, and
                                                                                             recover $1,040,377 from the Tribe, if
                                                                                             applicable.




                                                                                                                            Page 2 of 5
                                                                                                                     Department of Transportation
                                                                                                        Office of Inspector General Open Recommendations
                                                                                                                          As of April 6, 2010

                                                     REPORT     DATE REPORT   OPERATING              DESCRIPTION OF                 QUESTIONED UNSUPPORTED FUNDS BE PUT TO   TARGET
                 REPORT TITLE                        NUMBER        ISSUED   ADMINISTRATION          RECOMMENDATION                     COSTS      COSTS      BETTER USE    ACTION DATE   REMARKS
Single Audit - Government of Guam                   QC2008085     9/25/2008     FHWA       We recommend that FHWA recover             $113,634                               5/18/2010
                                                                                           $113,634 from the Government of
                                                                                           Guam.
Single Audit - Government of Guam                   QC2008085     9/25/2008     FHWA       We recommend that FHWA recover             $12,536                                5/18/2010
                                                                                           $12,536 from the Government of
                                                                                           Guam.
Single Audit - Comanche Nation                      QC2009044     3/20/2009     FHWA       We recommend that FHWA determine           $163,430                               6/30/2010
                                                                                           the allowability of the expenditures and
                                                                                           recover $163,430 from the Comanche
                                                                                           Nation.
Single Audit - City of Ft. Worth Texas              QC2009058     5/19/2009        FHWA       We recommend that FHWA recover                $85,589                           TBD
                                                                                              $85,589 from the City of Ft. Worth.

Single Audit - City of Ft. Worth Texas              QC2009058     5/19/2009        FHWA       We recommend that FHWA determine              $56,626                           TBD
                                                                                              the allowability of the duplicate wire
                                                                                              transfers and recover $56,626 from the
                                                                                              City of Ft. Worth.

Single Audit - City of Ft. Worth Texas              QC2009058     5/19/2009        FHWA       We recommend that FHWA determine              $26,766                           TBD
                                                                                              the allowability of the duplicate wire
                                                                                              transfers and recover $26,766 from the
                                                                                              City of Ft. Worth.
Single Audit - State of Rhode Island & Providence   QC2009105     9/29/2009        FHWA       We recommend that FHWA recover               $641,620                         5/24/2010
Plantations                                                                                   $641,620 from the State of Rhode
                                                                                              Island and Providence Plantations.

Single Audit - Washington County, Florida           SA2010019    11/16/2009        FHWA       We recommend that FHWA recover                $10,200                         5/16/2010
                                                                                              $10,200 from the County.
Single Audit - City of Tacoma, Washington           SA2010025    11/30/2009        FHWA       We recommend that FHWA determine              $20,164                         9/30/2010
                                                                                              the allowability of applying State-
                                                                                              approved activity rates to federal
                                                                                              transportation grants, and recover
                                                                                              $20,164 from the City of Tacoma.

Oversight of Design and Engineering Firm's          ZA2009033     2/5/2009         FHWA       We recommend that FHWA recover               $4,400,000                       3/31/2010
Indirect Costs Claimed On Federal-Aid Grants                                                  the $2.8 million in unallowable
                                                                                              executive compensation and $1.6
                                                                                              million in other unallowable indirect
                                                                                              charges.

Oversight of Design and Engineering Firm's          ZA2009033     2/5/2009         FHWA       We recommend that FHWA put                                    $30,200,000     5/30/2010
Indirect Costs Claimed On Federal-Aid Grants                                                  approximately $30.2 million in future
                                                                                              Federal-aid funds to better use.


Single Audit - Commonwealth of Pennsylvania         QC2009108     9/29/2009       FMCSA       We recommend that FMCSA                       $67,757                         3/29/2010
                                                                                              determine the allowability of the leave
                                                                                              costs and recover $67,757 from the
                                                                                              Commonwealth of Pennsylvania.




                                                                                                                             Page 3 of 5
                                                                                                                    Department of Transportation
                                                                                                       Office of Inspector General Open Recommendations
                                                                                                                         As of April 6, 2010

                                                    REPORT     DATE REPORT   OPERATING              DESCRIPTION OF                 QUESTIONED UNSUPPORTED FUNDS BE PUT TO   TARGET
                 REPORT TITLE                       NUMBER        ISSUED   ADMINISTRATION          RECOMMENDATION                     COSTS      COSTS      BETTER USE    ACTION DATE   REMARKS
Audit of Federal Transit Administration's          MH2008058      7/9/2008      FTA       We recommend that PVTA disallow all                   $4,250,000                 12/31/2010
Oversight Of Pioneer Valley Transit Authority                                             future costs claimed by ElectraStor,
Electric Bus Cooperative Agreement                                                        and develop an action plan in
                                                                                          coordination with the OIG to seek
                                                                                          recovery of the $4.25 million in Federal
                                                                                          Funds paid for the project.
Single Audit - South Carolina Department of        QC2007055     7/18/2007      FTA       We recommend that FTA determine            $496,479                              12/31/2011
Transportation                                                                            the allowability of the Department's
                                                                                          payments to the Authority, and recover
                                                                                          $496,479 from the Department and/or
                                                                                          the Authority, if applicable.
Single Audit - Attleboro Redevelopment Authority   QC2008065     7/24/2008        FTA        We recommend that FTA recover                 $76,464                        12/31/2010
                                                                                             $76,464 from the Authority.
Single Audit - City of Roanoke, Virginia           QC2009080     8/21/2009        FTA        We recommend that FTA determine              $178,641                         7/31/2010
                                                                                             the allowabililty of the contract award
                                                                                             and recover $178,641 from the City of
                                                                                             Roanoke.

Single Audit - Southeastern Regional Transit       QC2009085     8/25/2009        FTA        We recommend that FTA determine              $554,496                        12/31/2010
Authority                                                                                    the allowability of the reimbursement
                                                                                             request, and recover $554,496 from
                                                                                             the Southeastern Regional Transit
                                                                                             Authority.
Single Audit - Valley Regional Transit             QC2009094     9/23/2009        FTA        We recommend that FTA ensure that             $65,074                         7/31/2010
                                                                                             the Valley Regional Transit develop a
                                                                                             process to track specific grant related
                                                                                             overhead costs and recover $65,074.

Single Audit - Los Angeles County Metropolitan     QC2009106     9/29/2009        FTA        We recommend that FTA recover                $2,975,628                       4/30/2010
Transportation Authority                                                                     $2,975,628 from the Los Angeles
                                                                                             County Metropolitan Transportation
                                                                                             Authority.
Single Audit - Attleboro Redevelopment Authority   SA2010016    11/16/2009        FTA        We recommend that FTA recover                 $17,602                         9/15/2010
                                                                                             $17,602 from the Attleboro
                                                                                             Redevelopment Authority.

Single Audit - Attleboro Redevelopment Authority                                             We recommend that FTA recover                 $44,965                         9/15/2010
                                                                                             $44,965 from the Attleboro
                                                   SA2010016    11/16/2009        FTA        Redevelopment Authority.
Single Audit - City of Rome, New York              SA2010020    11/16/2009        FTA        We recommend that FTA recover                $800,000                         5/14/2010
                                                                                             $800,000 from the City of Rome.

Single Audit - Pierce Transit, Tacoma, WA                                                    We recommend that FTA recover                $435,784                         6/30/2010
                                                   SA2010026    11/30/2009        FTA        $435,784 from Pierce Transit.
Single Audit - City of Jonesboro, Arkansas                                                   We recommend that FTA recover                $155,480                         7/13/2010
                                                   SA2010038     1/13/2010        FTA        $155,480 from the City of Jonesboro.




                                                                                                                            Page 4 of 5
                                                                                                                   Department of Transportation
                                                                                                      Office of Inspector General Open Recommendations
                                                                                                                        As of April 6, 2010

                                                REPORT     DATE REPORT    OPERATING               DESCRIPTION OF                       QUESTIONED UNSUPPORTED FUNDS BE PUT TO   TARGET
                 REPORT TITLE                   NUMBER        ISSUED    ADMINISTRATION          RECOMMENDATION                           COSTS       COSTS      BETTER USE    ACTION DATE               REMARKS
Monitoring of FY 2009 Financial Statements     QC2010011     11/16/2009      OST       Clifton Gunderson (an independent                                        $800,000,000   11/15/2010 We estimate that OST has
                                                                                       external audit firm, under OIG contract                                                            deobligated approximately
                                                                                       and supervision) recommended that                                                                  $480,000,000 to date. Clifton
                                                                                       DOT monitor the field offices, quarterly                                                           Gunderson will determine how much
                                                                                       inactive project reviews, particularly on                                                          was actually deobligated and made
                                                                                       stagnant projects, to ensure that                                                                  available for other priority projects
                                                                                       inactive obligations are liquidated in a                                                           during the audit of the FY 2010 DOT
                                                                                       timely manner throughout the year.                                                                 Financial statements - to be issued
                                                                                                                                                                                          on 11/15/10.


The Joint Program Office's Management of the   AV2009040     3/11/2009           RITA        We recommend that RITA coordinate                                        $20,000,000      9/30/2010   RITA agreed to deobligate
Intelligent Transportation Systems Program                                                   with FHWA to identify and review old                                                                  $48,100,000.
Needs to be Improved                                                                         ITS contracts and agreements and de-
                                                                                             obligate nearly $20 million in unneeded
                                                                                             funds.
The Joint Program Office's Management of the   AV2009040     3/11/2009           RITA        We recommend that RITA coordinate                                         $3,900,000      9/30/2010
Intelligent Transportation Systems Program                                                   with FHWA review documentation
Needs to be Improved                                                                         supporting FTA's questionable $3.9
                                                                                             million in reimbursements on five
                                                                                             expired agreements and seek recovery
                                                                                             of those funds that cannot be verified.


                                                                                             TOTAL                                     $14,854,276     $4,250,000    $1,842,962,487




                                                                                                                           Page 5 of 5
